CORPORATION FOR PUBLIC BROADCASTING

    OFFICE OF INSPECTOR GENERAL




             System Review Report
                      of the
           Legal Services Corporation
  Office of Inspector General Audit Organization




           REPORT NO. EC01105-1107


               September 30, 2011




                 Kenneth A. Konz
                Inspector General
II
C a l poration
for Public
                                                                        Office of 'nspector General

Broadca sting


 September 30, 2011


 Jeffrey E. Schanz
 Inspector General
 Legal Services Corporation
 3333 K Street, NW.
 Washington, D.C . 20007

 Dear Mr. Schanz:

We have reviewed the system of quality control for the audit organization of Legal
Services Corporation (LSC) Office of the Inspector General (OIG) in effect for the year
ended March 31 , 2011. A system of quality control encompasses the OIG
organizational structure and the policies adopted and procedures established to provide
it with reasonable assurance of conforming with Government Auditing Standards. The
elements of quality control are described in the Government Auditing Standards. LSC
OIG is responsible for designing a system of quality control and complying with it to
provide LSC OIG with reasonable assurance of performing and reporting in conformity
with applicable professional standards in all material respects . Our responsibility is to
express an opinion on the design of the system of quality control and OIG's compliance
therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE). During our review, we interviewed LSC OIG personnel and obtained
an understanding of the nature of the LSC OIG audit organization , and the design of the
LSC OIG's system of quality control sufficient to assess the risks implicit in its audit
function. Based on our assessments, we selected engagements and administrative
files to test for conformity with professional standards and compliance with the LSC
OIG's system of quality control. The engagements selected represented a reasonable
cross-section of the LSC OIG's audit work products , with emphasis on higher-risk
engagements . Prior to concluding the review, we reassessed the adequacy of the
scope of the peer review procedures and met with LSC OIG management to discuss the
results of our review. We believe that the procedures we performed provide a
reasonable basis for our opinion .

In performing our review, we obtained an understanding of the system of quality control
for the LSC OIG's audit organization . In addition , we tested compliance with the LSC
OIG's quality control policies and procedures to the extent we cons idered appropriate.

dOl Nlnltf Streel, NW
Vios.tJington , DC 20004·2 129
2OZ8i9 Q6<R 2U2 879.9()!J9 fa x
kIl.ON c> cpb ,org ""','.' .'I.c pb,Of[1
These tests covered the application of the LSC OIG's policies and procedures on
selected engagements. Our review was based on selected tests; therefore , it would not
necessarily detect all weaknesses in the system of quality control or all instances of
noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system of quality control may occur and not be
detected . Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate. Enclosure 1 of this report identifies the engagements that
we reviewed.

In our opinion , the system of quality control for the audit organization of LSC OIG in
effect for the year ended March 31, 2011 , has been suitably designed and complied
with to provide LSC OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects . Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. LSC OIG has
received a peer review rating of pass . As is customary, we have issued a letter dated
September 30, 2011 that sets forth observations that were not considered to be of
sufficient significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance
with guidance established by the CIGIE related to LSC OIG's monitoring of
engagements performed by Independent Public Accountants (IPA) under contract
where the IPA served as the principal auditor. It should be noted that monitoring of
engagements performed by IPAs is not an audit and therefore is not subject to the
requirements of Government Auditing Standards. The purpose of our limited
procedures was to determine whether LSC OIG had controls to ensure IPAs performed
contracted work in accordance with professional standards . However, our objective
was not to express an opinion and accordingly, we do not express an opinion , on LSC
OIG's monitoring of work performed by IPAs.


~«-7L / ·
Kenneth A Konz ~        Y
Inspector General


Enclosure




                                            2
                                                                         Enclosure 1

                           SCOPE AND METHODOLOGY


Scope and Methodology

We tested compliance with the LSC OIG audit organization's system of quality control to
the extent we considered appropriate using the "Guide for Conducting External Peer
Reviews of the Audit Operations of Offices of Inspector General," issued by CIGIE,
dated March 2009 . These tests included a review of 2 of 8 audit reports issued during
the period April 01 , 2009 through March 31,2011, and semiannual reporting periods
ending September 30, 2009, March 31, 2010, September 30, 2010, and March 31 ,
2011. We also reviewed the independent monitoring of quality control for audits and
attestations conducted by the Federal Trade Commission, OIG under a Memorandum of
Understanding with the LSC OIG, dated October 5,2009. We conducted our fieldwork
during the period May 23, 2011 through June 24 , 2011 .

In addition , we reviewed the LSC OIG's monitoring of engagements performed by IPAs
where the IPA served as the principal auditor during the period April 1 , 2011, through
March 31,2011 . During the period, LSC OIG contracted for two audits of its agency's
Fiscal Year 2009 and 2010 financial statements.


Audit Reports Reviewed

We selected the following audits for review.

Report Title                             Report Date         Report Number

Colorado Legal Services                    1/18/11           Report No. AU-11-02
Capital Area Legal Services                9/27/10           Report No. AU-1 0-04
 Corporation

Reviewed Monitoring Files of LSC OIG for Contracted Engagements

Report Title                             Report Date

LSC Financial Statements and              1/07/11
 Independent Auditor's Report
 Years Ended September 30,
 2010 and 2009
